HHS/OIG-Audit--"Review of Medicaid Clinical Laboratory Services Calendar Years 1993 and 1994 , Wisconsin Department of Health and Social Services, Madison, Wisconsin (A-05-95-00035)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Clinical Laboratory Services Calendar Years 1993
and 1994 - Wisconsin Department of Health and Social Services, Madison, Wisconsin,"
(A-05-95-00035)
February 29, 1996
Complete Text of Report is available in PDF format
(184 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our audit of Department of Health and Social
Services (State agency) reimbursement for clinical laboratory services under
the Medicaid program. The objective of our audit was to determine the adequacy
of procedures and controls over the processing of Medicaid payments to providers
for clinical laboratory tests. Our review was limited to clinical laboratory
services involving certain chemistry and hematology tests set forth in APPENDIX
B.